PROOF OF SERVICE
In compliance with United States Supreme Court Rule 29 (5) and pursuant to 28 U. S. C. ยง1746
I, Zhi Gang Zhang, pro se petitioner certify that on December 2, 2019, served true and correct
copies of the Petition for Writ of Certiorari to the counsels for following Respondents by first
class US mail with postage paid. Thus, all parties required to be served have been served to
Robert D. Trzynka
Cutler Law Firm, LLP
140 North Phillips Ave., 4th Floor
P.O.Box 1400
Sioux Falls, SD 57101-1400.
Tel: (605) 335-4950
Attorney for Appellees Dan Rasmus & Rasmus Law Office, LLC
Bill Fuller
Fuller & Williamson, LLP
7521 S. Louise Ave.
Sioux Falls, SD 57108
Tel: (605) 333-0003
Attorneys for Appellees Tim James & James Law, PC

Daniel F. Duffy Bangs,
McCullen, Butler, Foye & Simmons, LLP
P.O. Box 2670
Rapid City, SD 57709-2670
Tel: (6050 343-1040
Attorneys for Appellees William R. Skolnick, Amy D. Joyce, and Skolnick & Shiff, P.A.

1

Will e-mailed to:
Mr. Robert D Trzynka
At e- mail address: bobt@cutlerlawfirm.com
Mr. William Fuller
At e-mail address: bfuller@fullerandwilliamson.com
Mr. Daniel F Duffy
At e-mail address: dduffy@bangsmccullen.com

I declare under penalty of perjury that the foregoing is true and correct.

Signature,

Zhi Gang Zhang
Executed on this 2nd day of December 2019
Pro Se Petitioner/Plaintiff /Appellant, Zhi Gang Zhang

Subscribed and Sworn to before me this 2nd day of December 2019.
Notary Public

BRADY HAAR
Notary Public
SEAL
South Dakota

<

My Commission Expires on S'

X ^

2

r

